  COMPLIANCE WITH STANDARDS GOVERNING 

COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE

    ARKANSAS STATE CRIME LABORATORY

          LITTLE ROCK, ARKANSAS


          U.S. Department of Justice 

        Office of the Inspector General 

                 Audit Division 

         Audit Report GR-40-11-001 

               November 2010

     COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE 

          ARKANSAS STATE CRIME LABORATORY

                LITTLE ROCK, ARKANSAS


                              EXECUTIVE SUMMARY



      The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Arkansas State Crime
Laboratory (Laboratory).

Background

        The Federal Bureau of Investigation’s (FBI) CODIS program combines
forensic science and computer technology to provide an investigative tool to
federal, state, and local crime laboratories in the United States, as well as
those from select international law enforcement agencies. The CODIS
program allows these crime laboratories to compare and match DNA profiles
electronically to assist law enforcement in solving crimes and identifying
missing or unidentified persons.1 The FBI’s CODIS Unit manages CODIS, as
well as develops, supports, and provides the program to crime laboratories
to foster the exchange and comparison of forensic DNA evidence.

      The FBI implemented CODIS as a distributed database with
hierarchical levels that enable federal, state, and local crime laboratories to
compare DNA profiles electronically. The hierarchy consists of three distinct
levels that flow upward from the local level to the state level and then, if
allowable, the national level. The National DNA Index System (NDIS), the
highest level in the hierarchy, is managed by the FBI as the nation’s DNA
database containing DNA profiles uploaded by law enforcement agencies
across the United States. NDIS enables the laboratories participating in the
CODIS program to electronically compare DNA profiles on a national level.
The State DNA Index System (SDIS) is used at the state level to serve as a
state’s DNA database containing DNA profiles from local laboratories and


       1
          DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9-percent of human DNA is the same for all people. The differences
found in the remaining 0.1-percent allow scientists to develop a unique set of DNA
identification characteristics (a DNA profile) for an individual by analyzing a specimen
containing DNA.


                                               i
state offenders. The Local DNA Index System (LDIS) is used by local
laboratories.

OIG Audit Objectives

       Our audit generally covered the period from August 2008 through
July 2010. The objectives of our audit were to determine if: (1) the
Arkansas State Crime Laboratory was in compliance with the NDIS
participation requirements; (2) the Laboratory was in compliance with the
Quality Assurance Standards (QAS) issued by the FBI; and (3) the
Laboratory’s forensic DNA profiles in CODIS databases were complete,
accurate, and allowable for inclusion in NDIS.

      Our review determined the following.

      	 The Laboratory complied with the NDIS participation requirements
         we reviewed.

      	 The Laboratory complied with the Quality Assurance Standards we
         reviewed.

      	 We reviewed 100 of the 3,899 forensic profiles the Laboratory had
         uploaded to NDIS as of June 22, 2010. Of the 100 forensic profiles
         sampled, 2 were unallowable for upload to NDIS. Both profiles
         were from items taken directly from suspects. The CODIS
         Administrator removed both profiles from NDIS during the audit.
         After those profiles were uploaded, the Laboratory implemented
         controls to prevent known suspect profiles from being uploaded into
         NDIS. The remaining 98 profiles we reviewed were complete,
         accurate, and allowable for inclusion in NDIS.

      The results of our audit are discussed in detail in the Findings section
of the report. Our audit objectives, scope, and methodology are detailed in
Appendix I of the report and the audit criteria are detailed in Appendix II.

      We discussed the results of our audit with Laboratory officials and
have included their comments in the report as applicable.




                                       ii
                               TABLE OF CONTENTS



INTRODUCTION ................................................................................ 1 

   Background .................................................................................... 1 

   OIG Audit Objectives ....................................................................... 1 

   Legal Foundation for CODIS.............................................................. 1 

   CODIS Structure ............................................................................. 2 

   Laboratory Information .................................................................... 6 


FINDINGS AND RECOMMENDATIONS................................................ 7

   I.    Compliance with NDIS Participation Requirements ......................... 7 

   II.   Compliance with the Quality Assurance Standards ......................... 9 

   III. Suitability of Forensic DNA Profiles in CODIS Databases ............... 12 


APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ............... 14


APPENDIX II: AUDIT CRITERIA ..................................................... 17

   NDIS Participation Requirements..................................................... 17 

   Quality Assurance Standards .......................................................... 18 

   Office of the Inspector General Standards......................................... 19 


APPENDIX III: FEDERAL BUREAU OF INVESTIGATION
              RESPONSE ………………………………………………………21

APPENDIX IV: ARKANSAS STATE CRIME LABORATORY
              RESPONSE ………………………………………………………22

APPENDIX V: OFFICE OF THE INSPECTOR GENERAL ANALYSIS 

             AND SUMMARY OF ACTIONS NECESSARY TO

             CLOSE REPORT ………………………………………………..23 

                                   INTRODUCTION


      The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Arkansas State Crime
Laboratory (Laboratory).

Background

       The Federal Bureau of Investigation’s (FBI) CODIS provides an
investigative tool to federal, state, and local crime laboratories in the
United States using forensic science and computer technology. The CODIS
program allows these laboratories to compare and match DNA profiles
electronically, thereby assisting law enforcement in solving crimes and
identifying missing or unidentified persons.2 The FBI’s CODIS Unit manages
CODIS and is responsible for its use in fostering the exchange and
comparison of forensic DNA evidence.

OIG Audit Objectives

      Our audit generally covered the period from August 2008 through
July 2010. The objectives of our audit were to determine if: (1) the
Arkansas State Crime Laboratory was in compliance with the National DNA
Index System (NDIS) participation requirements; (2) the Laboratory was in
compliance with the Quality Assurance Standards (QAS) issued by the FBI;
and (3) the Laboratory’s forensic DNA profiles in CODIS databases were
complete, accurate, and allowable for inclusion in NDIS. Appendix I contains
a detailed description of our audit objectives, scope, and methodology, while
the criteria used to conduct our audit are presented in Appendix II.

Legal Foundation for CODIS

      The FBI began the CODIS program as a pilot project in 1990. The
DNA Identification Act of 1994 (Act) authorized the FBI to establish a
national index of DNA profiles for law enforcement purposes. The Act, along



       2
          DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9-percent of human DNA is the same for all people. The differences
found in the remaining 0.1-percent allow scientists to develop a unique set of DNA
identification characteristics (a DNA profile) for an individual by analyzing a specimen
containing DNA.

                                               1

with subsequent amendments, has been codified in a federal statute
(Statute) providing the legal authority to establish and maintain NDIS.3

Allowable DNA Profiles

      The Statute authorizes NDIS to contain the DNA identification records
of persons convicted of crimes, persons who have been charged in an
indictment or information with a crime, and other persons whose DNA
samples are collected under applicable legal authorities. Samples voluntarily
submitted solely for elimination purposes are not authorized for inclusion in
NDIS. The Statute also authorizes NDIS to include analysis of DNA samples
recovered from crime scenes or from unidentified human remains, as well as
those voluntarily contributed from relatives of missing persons.

Allowable Disclosure of DNA Profiles

       The Statute requires that NDIS only include DNA information that is
based on analyses performed by or on behalf of a criminal justice agency –
or the U.S. Department of Defense – in accordance with QAS issued by the
FBI. The DNA information in the index is authorized to be disclosed only:
(1) to criminal justice agencies for law enforcement identification purposes;
(2) in judicial proceedings, if otherwise admissible pursuant to applicable
statutes or rules; (3) for criminal defense purposes, to a defendant who shall
have access to samples and analyses performed in connection with the case
in which the defendant is charged; or (4) if personally identifiable
information (PII) is removed for a population statistics database, for
identification research and protocol development purposes, or for quality
control purposes.

CODIS Structure

       The FBI implemented CODIS as a distributed database with
hierarchical levels that enable federal, state, and local crime laboratories to
compare DNA profiles electronically. CODIS consists of a hierarchy of three
distinct levels: (1) NDIS is managed by the FBI as the nation’s DNA
database containing DNA profiles uploaded by participating states, (2) the
State DNA Index System (SDIS) is used at the state level to serve as a
state’s DNA database containing DNA profiles from local laboratories within
the state and state offenders, and (3) the Local DNA Index System (LDIS) is
used by local laboratories. DNA profiles originate at the local level and
then flow upward to the state and, if allowable, national level. For example,

      3
          42 U.S.C.A. § 14132 (2006).
                                        2

the local laboratory in the Palm Beach County, Florida, Sheriff’s Office sends
its profiles to the state laboratory in Tallahassee, which then uploads the
profiles to NDIS. Each state participating in CODIS has one designated SDIS
laboratory. The SDIS laboratory maintains its own database and is
responsible for overseeing NDIS issues for all CODIS-participating
laboratories within the state. The graphic below presents an example of how
the system hierarchy works.

                 Example of System Hierarchy within CODIS


                                              NDIS
                                   Maintained by the FBI




SDIS                            SDIS                             SDIS
Laboratory                      Laboratory                       Laboratory
Richmond, CA                    Springfield, IL                  Tallahassee, FL



                                  LDIS Laboratories (partial list):
                                  DuPage County Sheriff’s Office
                                  Illinois State Police, Chicago
                                  Illinois State Police, Rockford

 LDIS Laboratories (partial list):                       LDIS Laboratories (partial list):
 Orange County Sheriff’s Department                      Broward County Sheriff’s Office
 San Bernardino County Sheriff’s Department              Miami-Dade Police Department
 San Diego Police Department                             Palm Beach County Sheriff’s Office
National DNA Index System

      NDIS is the highest level in the CODIS hierarchy and enables the
laboratories participating in the CODIS program to electronically compare
DNA profiles on a national level. NDIS does not contain names or other PII
about the profiles. Therefore, matches are resolved through a system of
laboratory-to-laboratory contacts. Within NDIS are seven searchable indices
discussed below.

      	   Convicted Offender Index contains profiles generated from persons
           convicted of qualifying offenses.4

      4
        The phrase “qualifying offenses” is used here to refer to local, state, or federal
 crimes that require a person to provide a DNA sample in accordance with applicable laws.

                                                  3

      	   Arrestee Index is comprised of profiles developed from persons who
           have been arrested, indicted, or charged in an information with a
           crime.

      	   Legal Index consists of profiles that are produced from DNA
           samples collected from persons under other applicable legal
           authorities.5

      	   Forensic Index profiles originate from, and are associated with,
           evidence found at crime scenes.

      	   Missing Person Index contains known DNA profile of missing
           persons and deduced missing persons.

      	   Unidentified Human (Remains) Index holds profiles from
           unidentified living individuals and the remains of unidentified
           deceased individuals.6

      	   Relatives of Missing Person Index is comprised of DNA profiles
           generated from the biological relatives of individuals reported
           missing.

     Although CODIS is comprised of multiple indices or databases, the two
main functions of the system are to: (1) generate investigative leads that
may help in solving crimes and (2) identify missing and unidentified persons.

       The Forensic Index generates investigative leads in CODIS that may
help solve crimes. Investigative leads may be generated through matches
between the Forensic Index and other indices in the system, including the
Convicted Offender, Arrestee, and Legal Indices. These matches may
provide investigators with the identity of suspected perpetrators. CODIS
also links crime scenes through matches between Forensic Index profiles,
potentially identifying serial offenders.

      In addition to generating investigative leads, CODIS furthers the
objectives of the FBI’s National Missing Person DNA Database program
through its ability to identify missing and unidentified individuals. Those

      5
        An example of a Legal Index profile is one from a person found not guilty by 

 reason of insanity who is required by the relevant state law to provide a DNA sample.

      6
         An example of an Unidentified Human (Remains) Index profile from a living person
 is a profile from a child or other individual, who cannot or refuses to identify themselves.
                                             4

persons may be identified through matches between indices in CODIS, such
as through matches between the profiles in the Missing Persons Index and
the Unidentified Human (Remains) Index. Identifications may also be
generated through matches between the Unidentified Human (Remains)
Index and the Relatives of Missing Persons Index. The profiles within the
Missing Persons and Unidentified Human (Remains) Indices may also be
vetted against the Forensic, Convicted Offender, Arrestee, and Legal Indices
to provide investigators with leads in solving missing and unidentified
persons cases.

State and Local DNA Index System

       The FBI provides CODIS software free of charge to any state or local
law enforcement laboratory performing DNA analysis. Laboratories are able
to use the CODIS software to upload profiles to NDIS. However, before a
laboratory is allowed to participate at the national level and upload DNA
profiles to NDIS, a Memorandum of Understanding (MOU) must be signed
between the FBI and the applicable state’s SDIS laboratory. The MOU
defines the responsibilities of each party, includes a sublicense for the use of
CODIS software, and delineates the standards laboratories must meet in
order to utilize NDIS. Although officials from LDIS laboratories do not sign
an MOU, LDIS laboratories that upload DNA profiles to an SDIS laboratory
are required to adhere to the MOU signed by the SDIS laboratory.

       States are authorized to upload DNA profiles to NDIS based on local,
state, and federal laws, as well as NDIS regulations. However, states or
localities may maintain NDIS-restricted profiles in SDIS or LDIS. For
instance, a local law may allow for the collection and maintenance of a
victim profile at LDIS but NDIS regulations do not authorize the upload of
that profile to the national level.

      The utility of CODIS relies upon the completeness, accuracy, and
quantity of profiles that laboratories upload to the system. Incomplete
CODIS profiles are those for which the required number of core loci were not
tested or do not contain all of the DNA information that resulted from a DNA
analysis and may not be searched at NDIS. The probability of a false match
among DNA profiles is reduced as the completeness of a profile increases.
Inaccurate profiles, which contain incorrect DNA information or an incorrect
specimen number, may generate false positive leads, false negative
comparisons, or lead to the misidentification of a sample. CODIS becomes
more useful as the quantity of DNA profiles in the system increases because
the potential for additional leads rises. However, laws and regulations
exclude certain types of profiles from being uploaded to CODIS to prevent

                                       5

violations to an individual’s privacy and foster the public’s confidence in
CODIS. Therefore, it is the responsibility of the Laboratory to ensure that it
is adhering to the NDIS participation requirements and the profiles uploaded
to CODIS are complete, accurate, and allowable for inclusion in NDIS.

Laboratory Information

      The Arkansas State Crime Laboratory participates in CODIS as a State
DNA Index System laboratory. The Laboratory began using DNA to process
criminal cases in 1996 and started uploading profiles to NDIS in 1998. The
Laboratory performs analysis on both convicted offender and forensic
samples. From 2006 through 2010, the Laboratory outsourced the analysis
of approximately 2,400 forensic samples. The Laboratory was first
accredited by the American Society of Crime Laboratory Directors/Laboratory
Accreditation Board (ASCLD/LAB) in 2004 and was reaccredited by
ASCLD/LAB in December 2009 for a period of 5 years.




                                      6

              FINDINGS AND RECOMMENDATIONS

  I. 	Compliance with NDIS Participation Requirements

     The Laboratory complied with the NDIS participation 

     requirements we reviewed. 


      The NDIS participation requirements, which consist of the MOU and
the NDIS Procedure Manual, establish the responsibilities and obligations of
laboratories that participate in the CODIS program at the national level. The
MOU describes the CODIS-related responsibilities of both the Laboratory and
the FBI. The NDIS Procedure Manual is comprised of the NDIS operational
procedures and provides detailed instructions for laboratories to follow when
performing certain procedures pertinent to NDIS. The NDIS participation
requirements we reviewed are listed in Appendix II of this report.

Results of the OIG Audit

       We found that the Laboratory complied with the NDIS participation
requirements we reviewed. The results of our audit are described in more
detail below.

  	 We interviewed the CODIS Administrator and conducted a
     walk-through tour of the building and the Laboratory. We identified no
     material concerns regarding the Laboratory’s procedures for securing
     the CODIS server or the Laboratory’s facilities.

  	 We interviewed the CODIS Administrator and reviewed documents to
     determine that the Laboratory provided appropriate personnel with
     copies of the NDIS procedures manual. We interviewed two CODIS
     users and determined that they both understood NDIS procedures and
     could access the procedures on the FBI’s Criminal Justice Information
     System Wide Area Network (CJIS/WAN).

  	 We reviewed certificates of completion for the CODIS users. All had
     completed the DNA Records Acceptable at NDIS training accessible on
     the CJIS/WAN during the last 2 years.

  	 For each CODIS user, the Laboratory is required to send certain
     background and security information to the FBI. We verified that the
     Laboratory submitted the required information to the FBI.



                                     7

  	 We interviewed the CODIS Administrator and determined the
     Laboratory complied with NDIS requirements regarding maintenance
     of personnel records.

  	 We reviewed a sample of NDIS matches and determined that each
     match was confirmed timely and that, when applicable, the
     investigators were notified timely.

  	 We reviewed the Laboratory's procedures for expunging or
     administratively removing profiles from the CODIS database and
     determined that the procedures were adequate and consistent with the
     FBI's requirements. The Laboratory had no requests for expungement
     or administrative removal.

Conclusion

       We made no recommendations concerning our review of NDIS
participation requirements.




                                   8

 II. Compliance with the Quality Assurance Standards

       The Laboratory complied with the Forensic and Offender QAS
       we reviewed.

      During our audit, we considered the Forensic and Offender QAS issued
by the FBI.7 These standards describe the quality assurance requirements
that the Laboratory must follow to ensure the quality and integrity of the
data it produces. We also assessed the two most recent QAS reviews that
the laboratory underwent.8 The QAS we reviewed are listed in Appendix II.

Results of the OIG Audit

     We found that the Laboratory complied with the Forensic and Offender
QAS we reviewed. The results of our audit are described in more detail
below.

   	 We determined the Laboratory underwent a QAS review during each of
      the last two calendar years as required by the QAS for laboratory
      reviews. The Laboratory underwent a QAS review by internal
      reviewers in October 2008 and by external reviewers in
      September 2009.

   	 We reviewed the most recent QAS review reports provided by the
      CODIS Administrator. The FBI’s QAS Review Document was used to
      conduct the most recent external and internal reviews. The FBI
      confirmed that at least one of the QAS reviewers for both reviews had
      successfully completed the FBI QAS Review training course. There
      were two findings in the external DNA Databasing Review Report and
      one finding in the external Forensic DNA Testing Review Report. The


       7
         Forensic Quality Assurance Standards refers to the Quality Assurance Standards
for Forensic DNA Testing Laboratories, effective July 1, 2009. Offender Quality Assurance
Standards refers to the Quality Assurance Standards for Convicted Offender DNA
Databasing Laboratories, effective July 1, 2009.

       8
           The QAS require that laboratories undergo annual audits. Every other year, the
QAS requires that the audit be performed by an external agency that performs DNA
identification analysis and is independent of the laboratory being reviewed. These audits
are not required by the QAS to be performed in accordance with the Government Auditing
Standards (GAS) and are not performed by the Department of Justice Office of the
Inspector General. Therefore, we will refer to the QAS audits as reviews (either an internal
laboratory review or an external laboratory review, as applicable) to avoid confusion with
our audits that are conducted in accordance with GAS.

                                             9

  Laboratory provided the most recent QAS Review Reports to the FBI
  within the required 30 days. During our audit, we reviewed the
  corrective actions and determined that the Laboratory had taken
  appropriate actions. The internal QAS review did not identify any
  findings of non-compliance with the QAS.

	 We asked the QAS reviewers who conducted the most recent external
   QAS reviews to certify that they had no impairments to their
   independence. The QAS reviewers provided us with this certification.

	 We toured the Laboratory building and interviewed the CODIS
   Administrator to determine that the facility appeared to have adequate
   physical access controls in place.

	 We interviewed the CODIS Administrator and reviewed policies to
   determine that the Laboratory appeared to have adequate procedures
   in place to ensure the integrity of physical evidence.

	 We interviewed the CODIS Administrator and reviewed policies and
   practices to determine that the Laboratory’s policies and practices
   regarding the separation of known and unknown samples during the
   analysis process appeared to be adequate.

	 We interviewed the CODIS Administrator and toured the Laboratory to
   determine that the Laboratory appeared to be in compliance with
   forensic standards governing the retention of samples and extracts
   after analysis.

	 We interviewed the Laboratory’s DNA Technical Leader (Training) and
   reviewed documentation to determine that the Laboratory outsourced
   DNA samples for analysis. We verified the contractor had undergone a
   QAS audit before the contract began and that the Laboratory had
   reviewed the quality of the contractor’s work in accordance with the
   FBI’s QAS.

	 We interviewed the CODIS Administrator and reviewed documentation
   to determine that the Laboratory reviews 100 percent of the
   outsourced work performed by the contractor, which includes an
   analyst review of raw data in Genotyper and Genescan printouts.

	 We interviewed the Laboratory’s DNA Technical Leader (Training) and
   reviewed documentation to determine that the Laboratory had


                                 10 

     conducted five site visits of the outsourced Laboratory within the last 4
     years.

Conclusion

     We made no recommendations concerning our review of the
Laboratory’s adherence to the QAS.




                                     11 

III. Suitability of Forensic DNA Profiles in CODIS Databases

      Of the 100 forensic profiles sampled, 2 were unallowable for
      upload to NDIS. Both profiles were from items taken directly
      from suspects. The CODIS Administrator removed both profiles
      from NDIS during the audit. After those profiles were uploaded,
      the Laboratory implemented controls to prevent known suspect
      profiles from being uploaded into NDIS. The remaining profiles
      we reviewed were complete, accurate, and allowable for
      inclusion in NDIS.

       We reviewed a sample of the Laboratory’s forensic DNA profiles to
determine whether each profile was complete, accurate, and allowable for
inclusion in NDIS.9 To test the completeness and accuracy of each profile,
we established standards that require a profile include all the loci for which
the analyst obtained results, and that the values at each locus match those
identified during analysis.10 Our standards are described in more detail in
Appendix II of this report.

      The NDIS operational procedures establish the DNA data acceptance
standards by which laboratories must abide. These procedures prohibit a
laboratory from uploading forensic profiles to NDIS that clearly match the
DNA profile of the victim or another known person who is not the putative
perpetrator. A profile at NDIS that matches a suspect may be allowable if
the contributor is unknown at the time of collection; however, NDIS
guidelines prohibit profiles that match a suspect if that profile could
reasonably have been expected to be on an item at the crime scene or part
of the crime scene independent of the crime. For instance, a profile from an
item seized from the suspect’s person, such as a shirt, or that was in the
possession of the suspect when collected would not be allowed for upload to
NDIS. The NDIS procedures we reviewed are listed in Appendix II of this
report.

Results of the OIG Audit

       We selected a random sample of 100 profiles out of the 3,899 forensic
profiles the Laboratory had uploaded to NDIS as of June 22, 2010. Of the
100 forensic profiles sampled, 2 were unallowable for upload to NDIS. The

      9
         When a laboratory’s universe of DNA profiles in NDIS exceeds 1,500, our sample is
taken from SDIS rather than directly from NDIS. See Appendix I for further description of
the sample selection.
      10
           A “locus” is a specific location on a chromosome. The plural form of locus is loci.
                                              12 

remaining profiles sampled were complete, accurate, and allowable for
inclusion in NDIS. The specific exceptions are explained in more detail
below.

OIG Sample Number CA-02

      Sample CA-02 was taken from a cigarette butt that was submitted to
the Laboratory in 2005 as a known sample by the investigating officer
without clearly labeling it as such. During processing, the analyst
mistakenly thought the sample came from the crime scene when in fact the
sample was collected from the suspect during the investigation. This error
was not detected during the technical review. The profile was then
entered into CODIS in September 2005 as a forensic unknown. According
to the Laboratory Director, the Laboratory modified the Forensic DNA Case
Review sheet in 2007 to require the Technical Reviewer to determine if the
appropriate specimen category and sample indicated on the CODIS Entry
form was correct. The profile was removed from NDIS by the CODIS
Administrator during our audit.

OIG Sample Number CA-15

      Sample CA-15 was taken from clothing obtained from the suspect.
The investigator wanted to determine if blood on the clothing belonged to
the victim. Although the Evidence Submission form identified the clothing as
belonging to a suspect, the form the Laboratory serologist furnished the DNA
section did not indicate this. The resulting DNA profile excluded the victim.
The analyst mistakenly thought the sample came from crime scene evidence
and uploaded the profile into CODIS October 2003 as a forensic unknown.
According to the Laboratory Director, the new Forensic DNA Case Review
sheet discussed above, along with the Laboratory's new electronic
information system, implemented in 2006, should prevent such errors in the
future. The system makes all submissions, results, and all case file
information readily available to all DNA analysts. The profile was removed
from NDIS by the CODIS Administrator during our audit.

Conclusion

      The Laboratory has taken corrective action with respect to both
unallowable profiles. Given the small number of errors and the Laboratory’s
corrective actions, we made no recommendations concerning our review of
forensic DNA profiles.



                                     13 

                                                                          APPENDIX I

             OBJECTIVES, SCOPE, AND METHODOLOGY


      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      Our audit generally covered the period from August 2008 through
July 2010. The objectives of the audit were to determine if the:
(1) Laboratory was in compliance with the NDIS participation requirements;
(2) Laboratory was in compliance with the Quality Assurance Standards
(QAS) issued by the FBI; and (3) Laboratory’s forensic DNA profiles in
CODIS databases were complete, accurate, and allowable for inclusion in
NDIS. To accomplish the objectives of the audit, we:

   	 Examined internal and external Laboratory review reports and
      supporting documentation for corrective action taken, if any, to
      determine: (a) if the Laboratory complied with the QAS, (b) whether
      repeat findings were identified, and (c) whether recommendations were
      adequately resolved.11

       In accordance with the QAS, the internal and external laboratory review
       procedures are to address, at a minimum, a laboratory’s quality
       assurance program, organization and management, personnel
       qualifications, facilities, evidence control, validation of methods and
       procedures, analytical procedures, calibration and maintenance of
       instruments and equipment, proficiency testing of analysts, corrective
       action for discrepancies and errors, review of case files, reports, safety,
       and previous audits. The QAS require that internal and external reviews

       11
            The QAS require that laboratories undergo annual audits. Every other year, the
QAS requires that the audit be performed by an external agency that performs DNA
identification analysis and is independent of the laboratory being reviewed. These audits
are not required by the QAS to be performed in accordance with the Government Auditing
Standards (GAS) and are not performed by the Department of Justice Office of the
Inspector General. Therefore, we will refer to the QAS audits as reviews (either an internal
laboratory review or an external laboratory review, as applicable) to avoid confusion with
our audits that are conducted in accordance with GAS.


                                            14 

        be performed by personnel who have successfully completed the FBI’s
        training course for conducting such reviews.

        As permitted by GAS 7.42 (2007 revision), we generally relied on the
        results of the Laboratory’s external laboratory reviews to determine if
        the Laboratory complied with the QAS.12 In order to rely on the work
        of non-auditors, GAS requires that we perform procedures to obtain
        sufficient evidence that the work can be relied upon. Therefore, we:
        (1) obtained evidence concerning the qualifications and independence
        of the individuals who conducted the review and (2) determined that
        the scope, quality, and timing of the audit work performed was
        adequate for reliance in the context of the current audit objectives by
        reviewing the evaluation procedure guide and resultant findings to
        understand the methods and significant assumptions used by the
        individuals conducting the reviews. Based on this work, we
        determined that we could rely on the results of the Laboratory’s
        external laboratory review.

    	 Interviewed Laboratory officials to identify management controls,
       Laboratory operational policies and procedures, Laboratory certifications
       or accreditations, and analytical information related to DNA profiles.

    	 Toured the Laboratory to observe facility security measures as well as
       the procedures and controls related to the receipt, processing,
       analyzing, and storage of forensic evidence and convicted offender DNA
       samples.

    	 Reviewed the Laboratory’s written policies and procedures related to
       conducting internal reviews, resolving review findings, expunging DNA
       profiles from NDIS, and resolving matches among DNA profiles in NDIS.

    	 Reviewed supporting documentation for 10 of 300 NDIS matches to
       determine whether they were resolved in a timely manner. The
       Laboratory provided the universe of NDIS case to offender matches as of
       June 30, 2010 and case to case matches as of July 13, 2010. The
       sample was judgmentally selected to include both case-to-case and


        12
            We also considered the results of the Laboratory’s internal laboratory review, but
could not rely on it because it was not performed by personnel independent of the
Laboratory. Further, as noted in Appendix II, we performed audit testing to verify
Laboratory compliance with specific Quality Assurance Standards that have a substantial
effect on the integrity of the DNA profiles uploaded to NDIS.

                                              15 

     case-to-offender matches. This non-statistical sample does not allow
     projection of the test results to all matches.

  	 Reviewed supporting documentation to determine whether the 

     Laboratory provided adequate vendor oversight. 


     Reviewed the case files for selected forensic DNA profiles to determine if
     the profiles were developed in accordance with the Forensic QAS and
     were complete, accurate, and allowable for inclusion in NDIS.

  	 We were unable to obtain the forensic profile information directly from
     NDIS because of the large number of profiles involved and because FBI
     management controls at the NDIS level prohibit the dissemination of
     information in an electronic format. Therefore, working in conjunction
     with the contractor used by the FBI to maintain NDIS and the CODIS
     software, the Laboratory provided us with an electronic file identifying
     the 3,899 Short Tandem Repeat forensic profiles the Laboratory had
     uploaded to NDIS as of June 23, 2010. We verified that the total
     number of the Laboratory’s profiles in SDIS that were designated as
     processed by NDIS agreed with the total number of the Laboratory’s
     profiles in NDIS for a given specimen category as of the same date.
     Since the total numbers agreed, and NDIS contains profiles uploaded
     from SDIS, we considered this universe of SDIS profiles to be
     representative of the Laboratory’s profiles contained in NDIS. We
     limited our review to a sample of 100 profiles. This sample size was
     determined judgmentally because preliminary audit work determined
     that risk was not unacceptably high.

  	 Using the judgmentally-determined sample size, we randomly selected a
     representative sample of labels associated with specific profiles in our
     universe to reduce the effect of any patterns in the list of profiles
     provided to us. However, since the sample size was judgmentally
     determined, the results obtained from testing this limited sample of
     profiles may not be projected to the universe of profiles from which the
     sample was selected.

      The objectives of our audit concerned the Laboratory's compliance with
required standards and the related internal controls. Accordingly, we did not
attach a separate statement on compliance with laws and regulations or a
statement on internal controls to this report. See Appendix II for detailed
information on our audit criteria.



                                     16 

                                                              APPENDIX II

                             AUDIT CRITERIA


      In conducting our audit, we considered the NDIS participation
requirements and the Quality Assurance Standards (QAS). However, we did
not test for compliance with elements that were not applicable to the
Laboratory. In addition, we established standards to test the completeness
and accuracy of DNA profiles as well as the timely notification of DNA profile
matches to law enforcement.

NDIS Participation Requirements

       The NDIS participation requirements, which consist of the
Memorandum of Understanding (MOU) and the NDIS operational procedures,
establish the responsibilities and obligations of laboratories that participate
in NDIS. The MOU requires that NDIS participants comply with federal
legislation and the QAS, as well as NDIS-specific requirements
accompanying the MOU in the form of appendices. We focused our audit on
specific sections of the following NDIS operational procedures.

      DNA Data Acceptance Standards
      DNA Data Accepted at NDIS
      Quality Assurance Standards (QAS) Audits
      NDIS DNA Autosearches
      Confirm an Interstate Candidate Match
      General Responsibilities
      Initiate and Maintain a Laboratory’s Participation in NDIS
      Security Requirements
      CODIS Users
      CODIS Administrator Responsibilities
      Access to, and Disclosure of, DNA Records and Samples
      Upload of DNA Records
      Expunge a DNA Record




                                      17 

Quality Assurance Standards

      The FBI issued two sets of Quality Assurance Standards (QAS): QAS
for Forensic DNA Testing Laboratories, effective July 1, 2009 (Forensic QAS);
and QAS for DNA Databasing Laboratories, effective July 1, 2009 (Offender
QAS). The Forensic QAS and the Offender QAS describe the quality
assurance requirements that the Laboratory should follow to ensure the
quality and integrity of the data it produces.

       For our audit, we generally relied on the reported results of the
Laboratory’s most recent annual external review to determine if the
Laboratory was in compliance with the QAS. Additionally, we performed
audit work to verify that the Laboratory was in compliance with the QAS
listed below because they have a substantial effect on the integrity of the
DNA profiles uploaded to NDIS.

   	 Facilities (Forensic QAS and Offender QAS 6.1): The laboratory shall
      have a facility that is designed to ensure the integrity of the analyses
      and the evidence.

   	 Evidence Control (Forensic QAS 7.1): The laboratory shall have and
      follow a documented evidence control system to ensure the integrity of
      physical evidence. Where possible, the laboratory shall retain or return
      a portion of the evidence sample or extract.

   	 Sample Control (Offender QAS 7.1): The laboratory shall have and
      follow a documented sample inventory control system to ensure the
      integrity of database and known samples.

   	 Analytical Procedures (Forensic QAS and Offender QAS 9.5): The
      laboratory shall monitor the analytical procedures using [appropriate]
      controls and standards.

   	 Review (Forensic QAS 12.1): The laboratory shall conduct
      administrative and technical reviews of all case files and reports to
      ensure conclusions and supporting data are reasonable and within the
      constraints of scientific knowledge.

      (Offender QAS Standard 12.1): The laboratory shall have and follow
      written procedures for reviewing DNA records and DNA database
      information, including the resolution of database matches.



                                      18 

  	 Reviews (Forensic QAS and Offender QAS 15.1 and 15.2): The
     laboratory shall be audited annually in accordance with the QAS. The
     annual audits shall occur every calendar year and shall be at least 6
     months and no more than 18 months apart.

     At least once every 2 years, an external audit shall be conducted by an
     audit team comprised of qualified auditors from a second agency and
     having at least one team member who is or has been previously
     qualified in the laboratory’s current DNA technologies and platform.

  	 Outsourcing (Forensic QAS and Offender QAS Standard 17.1): A vendor
     laboratory performing forensic and database DNA analysis shall comply
     with these Standards and the accreditation requirements of federal law.

     Forensic QAS 17.4: An NDIS participating laboratory shall have and
     follow a procedure to verify the integrity of the DNA data received
     through the performance of the technical review of DNA data from a
     vendor laboratory.

     Offender QAS Standard 17.4: An NDIS participating laboratory shall
     have, follow and document appropriate quality assurance procedures to
     verify the integrity of the data received from the vendor laboratory
     including, but not limited to, the following: Random reanalysis of
     database, known or casework reference samples; Inclusion of QC
     samples; Performance of an on-site visit by an NDIS participating
     laboratory or multi-laboratory system outsourcing DNA sample(s) to a
     vendor laboratory or accepting ownership of DNA data from a vendor
     laboratory.

Office of the Inspector General Standards

       We established standards to test the completeness and accuracy of
DNA profiles as well as the timely notification of law enforcement when DNA
profile matches occur in NDIS. Our standards are listed below.

  	 Completeness of DNA Profiles: A profile must include each value
     returned at each locus for which the analyst obtained results. Our
     rationale for this standard is that the probability of a false match
     among DNA profiles is reduced as the number of loci included in a
     profile increases. A false match would require the unnecessary use of
     laboratory resources to refute the match.

  	 Accuracy of DNA Profiles: The values at each locus of a profile must
     match those identified during analysis. Our rationale for this standard
                                    19 

  is that inaccurate profiles may: (1) preclude DNA profiles from being
  matched and, therefore, the potential to link convicted offenders to a
  crime or to link previously unrelated crimes to each other may be lost;
  or (2) result in a false match that would require the unnecessary use
  of laboratory resources to refute the match.

	 Timely Notification of Law Enforcement When DNA Profile Matches
   Occur in NDIS: Laboratories should notify law enforcement personnel
   of NDIS matches within 2 weeks of the match confirmation date,
   unless there are extenuating circumstances. Our rationale for this
   standard is that untimely notification of law enforcement personnel
   may result in the suspected perpetrator committing additional, and
   possibly more egregious, crimes if the individual is not deceased or
   already incarcerated for the commission of other crimes.




                                 20 

                                                                           APPENDIX III

       FEDERAL BUREAU OF INVESTIGATION RESPONSE
                                                           U.S. Department of Justice

                                                           Federal Bureau of Investigation

                                                           Washington D.C. 20535-0001

                                                           September 28, 2010




Ferris B. Polk
Regional Audit Manager
Atlanta Regional Audit Office
Office of the Inspector General
75 Spring Street
Atlanta, GA 30303



Dear Mr. Polk:

             Your memorandum to Director Mueller forwarding the draft audit report for
the Arkansas State Crime Laboratory, Little Rock, Arkansas, has been referred to me for
response.

               Your draft report contained no recommendations relating to the Laboratory's
compliance with the FBI’s Memorandum of Understanding and Quality Assurance Standards
for DNA Testing Laboratories and Quality Assurance Standards for DNA Databasing
Laboratories. The CODIS Unit reviewed the draft report and since it appears that the
Laboratory is in compliance with NDIS participation requirements, the CODIS Unit has no
comments to provide to the draft report.

              Thank you for sharing the draft audit report with us. If you have any
questions, please feel free to contact Jennifer C. Luttman, Chief of the CODIS Unit, at (703)
632-8315.

                                                    Sincerely,

                                                           /s/

                                                    Alice R. Isenberg, Ph.D
                                                    Section Chief
                                                    Biometrics Analysis Section
                                                    FBI Laboratory




                                             21 

                                                                          APPENDIX IV
                                                                                 X

       ARKANSAS STATE CRIME LABORATORY RESPONSE
            S            M     O    R     P
                        ARKAN
                            NSAS STATE CRIME LABORATORY
                                    T               O




September 23, 2010
      b          0

Mr. Ferris B. Polk
Regional Audit Manager
                    a
U.S. Department of Justice
        p
Office of the Inspector General
                    t
75 Spring Street, Suite 1130
                    u
Atlanta, GA 30303

Dear Mr. Polk:
       .

I have reviewed the OIG draft audit report covering the period from August 2008 through
        e         e                       t          h           o                   g
July 2010 conducted at our Little Rock, Arkansas laboratory.
                  d                       k

Based on my review of the document, the laboratory was found to be in compliance with the
       n          w           u                                         m            h
NDIS participation requirements and the Quality Assurance Standards (both Forensic and
                             t                                d                     n
Offender).
       r

The review of the suitability of Forensic DNA profiles in CODIS revealed 2 (two) samples
        e          u                       N            n         v          w         s
that were unallowable and thus were removed from NDIS.
                   b            s          o

I agree with the draft audit report as written and extend my appreciation to the OIG for
                   a                        e         e         r                      r
devoting time for this audit process.
       g           h           o


Sincerely,
        y

/S/
Kermit B. Channell II
Executive Director

cc: Paula Pagano, FBI
        a

            #3 Natural Resources Drive  P.O. Box 8500  Little Rock, Arkansas 72215
                            r                      5                      n
     Fax 501-227-0713
       x          0                                                   Fax 501-221-1653
                                                                                     5
     Phone 501-227-5747
       o          7                                                   Phone 501-227-5936
                                                                          e          5
     Laboratory Services
       b          r                                                   Medical Examiner
                                                                          c


                                            22
                                                                APPENDIX V

          OFFICE OF THE INSPECTOR GENERAL 

     ANALYSIS AND SUMMARY OF ACTIONS NECESSARY 

                   TO CLOSE REPORT


       The OIG provided a draft of this audit report to the Federal Bureau of
Investigation (FBI) and to the Director, Arkansas State Crime Laboratory.
The FBI’s comments are incorporated as Appendix III of this final report.
The Laboratory Director’s comments are incorporated in Appendix IV of this
final report. This report contains no recommendations and is issued closed.




                                     23 

